                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

11   Case Number: A10010003
                                                                                11          Page 1 of 1



                 NSF OIG received an allegation of de minimis amount of plagiarism within 3 NSF
         proposals' submitted by the same PI.^ We wrote the PI and he responded by acknowledging the
         copied text, which often lacked quotation marks but included citations to references in the
         bibliography. We sent the Subject a letter reminding him of his responsibility to adequately cite
         all material in his NSF proposals.
